No. 20-

In The

Supreme Court of the United States
LUIS XADIEL CRUZ VAZQUEZ,
Petitioner,
-vsUNITED STATES OF AMERICA,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The First Circuit

PETITION FOR WRIT OF CERTIORARI
EZEKIEL E. CORTEZ
Law Offices of Ezekiel E. Cortez
550 West C Street, Suite 620
San Diego, California 92101
(619) 237-0309
lawforjustice@gmail.com
Attorney for Petitioner
Luis Xadiel Cruz Vazquez

ii

QUESTIONS PRESENTED FOR REVIEW
This petition presents published comments by the First Circuit
Court of Appeal which cause the reasonable person to question the
neutrality and fairness of the court’s denial of Petitioner’s Motion for
Certificate of Appealability (COA). The unsettling comments by the First
Circuit can be found in its prior published opinion, affirming Petitioner’s
conviction and sentence on direct appeal, where the court prominently
noted Petitioner’s exercise of his Sixth Amendment right to a jury trial:
Blood is often thicker than water…. Unlike
dozens of others who entered guilty pleas ...
Ayala [Petitioner’s co-defendant and brother] and
Cruz hunkered down and stood trial together.
They were both convicted, and each received a life
sentence.
United States v. Angel Ayala Vazquez and Luis X Cruz Vazquez, 751 F.3d
1, 6 (1st Cir. 2014), emphasis added. Explicitly, the First Circuit found it
necessary to underscore Petitioner’s rejection of a plea agreement and
election to exercise his absolute right to trial, unconditionally assured by
Bordenkircher v. Hayes, 434 U.S. 357, 363 (1978).
Therefore, this petition respectfully asks that this Court exercise
its supervisory power to provide guidance to lower courts in the
application of the standard for issuance of a certificate of appealability
and the unquestioned right to protection against any hint of punitive
judicial retaliation for exercising the right to trial.
With this as backdrop, the questions for review are:

iii

1. In refusing to issue a COA, did the First Circuit apply a novel,
harsher standard requiring Petitioner to prove actual intent by
conflicted counsel to harm another client, thereby denying Cruz
Vazquez his Fifth Amendment right to due process and his Sixth
Amendment right to the effective assistance of conflict-free
counsel in violation of Wheat v. United States, 486 U.S. 153
(1988); Mickens v. Taylor, 535 U.S. 162 (2002); and, United
States v. DeCologero, 530 F.3d 36, 77 (1st Cir.2008)?
2. Did the First Circuit depart from precedent when it ignored that
Cruz Vazquez was denied effective assistance of counsel, where
his counsel abandoned a readily-available multiple conspiracy
defense, failed to challenge the sufficiency of the evidence, and
then conceded guilt, instead of invoking the “supermarket”
multiple conspiracy defense recognized in United States v.
Dellosantos, 649 F.3d 109, 121 (1st Cir. 2011)?
3. Waving off the Fifth Amendment’s due process clause, did the
First Circuit ignore this Court’s precedent by blessing the
district court’s open bias in summarily denying Cruz Vazquez’s
well-grounded, critical Brady 1 requests, where unchallenged
facts in the 2255 demonstrated a palpable pattern of Brady
violations by the government’s Puerto Rico office?
4. Did the First Circuit’s refusal to issue a certificate of
appealability unconstitutionally permit a prejudicial denial of
Cruz Vazquez’s right to effective assistance at sentencing, where
even the Government admitted that trial counsel waived the
issue when it totally "failed to provide evidence to support [a]
sentencing disparity contention prior to or at sentencing" in a
case where the district court imposed a life sentence?

1

[Brady v. Maryland, 373 U.S. 83 (1963).]

PARTIES TO THE PROCEEDING
Petitioner Luis Xadiel Cruz Vazquez was one of many codefendants in the district and appellate court proceedings, along
with his brother and co-defendant Angel Ayala Vazquez.
Respondent United States of America was the plaintiff in the
district court proceedings and appellee in the court of appeals
proceedings on direct appeal.
RELATED CASES
•

USA v. Angel Ayala Vazquez and Luis X Cruz Vazquez, 751
F.3d 1, 4 (1st Cir. 2014), DC No. 11CR045-PG.

•

USA v. Luis Xadiel Cruz Vazquez, et al, USDC Puerto Rico
Nos. 15CV283(PG); 09CR0173-PG and 11CR045-PG.

•

USA v. Carlos Raymundi-Hernandez, Rocky Martinez-Negron,
a/k/a Rocky, and Javanni Varestin-Cruz, 1st Circuit 16-2490,
17-1081, 17-1092 18-1076, 17-1314, and 18-1528; DC No. 110045-PG.

•

USA v. Elvin Torres Estrada, 1st Cir. No. 19-1485; USDC No.
17CV1373-(PG), 09CR0173-PG and 11CR045-PG.

v

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED…………………………………………......

ii

PARTIES TO THE PROCEEDINGS…………………………………… iv
RELATED CASES…………………………………………………………

iv

TABLE OF CONTENTS………………………………………………….

v

TABLE OF AUTHORITIES……………………………………………... vii
PETITION FOR WRIT OF CERTIORARI……………………………..

1

OPINION BELOW………………………………………………………...

1

JURISDICTION……………………………………………………………

3

CONSTITUTIONAL PROVISIONS INVOLVED IN THIS CASE…

3

STATEMENT OF THE CASE…………………………………………...

4

REASON FOR ALLOWANCE OF THE WRIT……………………….

8

1. Refusing to issue a COA, the First Circuit applied a novel,
harsher standard requiring Petitioner to prove actual intent
by conflicted counsel to harm another client, thereby denying
Cruz Vazquez his Fifth Amendment right to due process and
his Sixth Amendment right to the effective assistance of
conflict-free counsel in violation of Wheat v. United States,
486 U.S. 153 (1988); Mickens v. Taylor, 535 U.S. 162 (2002);
and, United States v. DeCologero, 530 F.3d 36, 77 (1st
Cir.2008)……………………………………………………………..
2. The First Circuit departed from precedent when it ignored
that Cruz Vazquez was denied effective assistance of counsel,
where his counsel abandoned a readily-available multiple
conspiracy defense, failed to challenge the sufficiency of the

8

vi

evidence, and then conceded guilt, instead of invoking the
“supermarket” multiple conspiracy defense recognized in
United States v. Dellosantos, 649 F.3d 109, 121 (1st Cir. 2011)
3. Waving off the Fifth Amendment’s due process clause, the
First Circuit ignored this Court’s precedent by blessing the
district court’s open bias in summarily denying Cruz
Vazquez’s well-grounded, critical Brady requests, where
unchallenged facts in the 2255 demonstrated a palpable
pattern of Brady violations by the government’s Puerto Rico
office………………………………………………………………….
4. The First Circuit’s refusal to issue a certificate of
appealability unconstitutionally permited a prejudicial
denial of Cruz Vazquez’s right to effective assistance at
sentencing, where even the Government admitted that trial
counsel waived the issue when it totally "failed to provide
evidence to support [a] sentencing disparity contention prior
to or at sentencing" in a case where the district court imposed
a life sentence ………………………………………………………
CONCLUSION……………………………………………………………..

11

15

17
19

APPENDIX
Memorandum, United States Court of Appeals for the First
Circuit (April 2, 2020)………………………………………………… App. 1
Order Denying Rehearing and Rehearing En Banc, United
States Court of Appeals for the First Circuit (July 21, 2020).... App. 3
Excerpt of Reporter's Trial Transcript, April 25, 2011, 17thday of trial, pages 6-7………………………………………………… App. 4

vii

TABLE OF AUTHORITIES
Page
UNITED STATES SUPREME COURT
Barefoot v. Estelle, 453 U.S. 880, 893 n. 4 (1983)……………………..

9

Bordenkircher v. Hayes, 434 U.S. 357, 363 (1978)…………………....

ii

Brady v. Maryland, 373 U.S. 83 (1963)……………………….. iii, vi, 6, 7
Buck v. Davis, 137 S.Ct. 759, 773
7, 8
(2017)………………………………
Evitts v. Lucey, 469 U.S. 387, 405 (1984)…………………………….... 5
Glover v. United States, 531 U.S. 198, 203-04 (2001)………………...

8

Mempa v. Rhay, 389 U.S. 128
8
(1967)……………………………………
Mickens v. Taylor, 535 U.S. 162 (2002)………………………….. iii, 5, 11
Miller-El v. Cockrell, 537 U.S. 322, 338 (2003)…………………. 7, 9, 10
Strickland v. Washington, 466 U.S. 668, 687 (1984)………………….. 11
United States v. Burgos-Chapparro, 309 F.3d 50 (1st Cir. 2002)…… 11
United States v. Gonzalez-Lopez, 548 U.S. 140, 151-52 (2006)… 15, 17
Wheat v. United States, 486 U.S. 153 (1988)……………………... iii, 2, 5
COURTS OF APPEAL
United States v. Angel Ayala Vazquez and Luis X Cruz Vazquez,
751 F.3d 1, 4 (1st Cir. 2014)…………………………………………... ii, 17
United States v. DeCologero, 530 F.3d 36, 77 (1st Cir.2008)…… iii, 2, 3

viii

United States v. Dellosantos, 649 F.3d 109, 121 (1st Cir. 2011) iii, 6, 7
STATUTES
28 U.S.C. § 1254(1)………………………………………………………...

3

28 U.S.C. § 1651(a)…………………………………………………….…...

3

28 U.S.C. § 2255…………………………………………………….... Passim
28 U.S.C. § 2253(c)…………………………………………. 9, 11, 15, 16, 17
UNITED STATES CONSTITUTION
Fifth Amendment…………………………………………………….. iii, 3, 5
Sixth Amendment…………………………………………. ii, iii, 3, 5, 8, 15

1

PETITION FOR WRIT OF CERTIORARI
Petitioner, Cruz Vazquez, respectfully prays this Court issue a Writ
of Certiorari to review the order entered on July 21, 2020 by the First
Circuit Court of Appeal, denying en banc hearing on Cruz Vazquez’s
request for a certificate of appealability on his 2255.
__________________________
OPINION BELOW
On April 2, 2020, the Court of Appeals for the First Circuit issued
its Memorandum Opinion (Memorandum Opinion) affirming the District
Court’s denial of Petitioner’s 2255 and refusal to grant a Certificate of
Appealability.
Significantly, in its very brief Order, the First Circuit ruled on only
2 of the 6 issues raised by Cruz Vazquez. And, on a critical, uncontested,
conflicted appellate counsel issue, the lower court held:
After a thorough review of the record of the
petitioner's submission, we deny the request for a
certificate of appealability ("COA"). Petitioner has
failed to explain how any of counsel's choices about
which arguments to pursue or forgo on appeal
were a "manifestation of divided loyalties."
Memorandum Opinion, page 1. App. 1.
In this holding, the First Circuit’s opinion demonstrated that it
ignored the substantial new record provided by Cruz Vazquez, previously
absent from his direct appeal. The uncontested record demonstrated that

2

conflicted counsel had concurrently represented one of the Government’s
key witnesses and cooperators who had stated that this was but one
single broad conspiracy, headed by Cruz Vazquez’s brother and codefendant, Angel Ayala Vazquez. This act by the lower court was a major
departure from precedent and arbitrarily imposed a unique standard of
proof on Cruz Vazquez, conflicting with Wheat v. United States, 486 U.S.
387, 405 (1984). This unique ruling also unfairly expanded the First
Circuit’s own precedent in United States v. DeCologero, 530 F.3d 36, 77
(1st Cir. 2008).
Citing DeCologero, the First Circuit held, inter alia, that Petitioner:
[H]as failed to explain how any of counsel’s choices
about which arguments to pursue or forgo on
appeal were a “manifestation of divided loyalties”
[citation omitted]. Therefore, he has failed to show
a debatable claim that counsel's concurrent
representations 'adversely affect[ed] counsel's
performance.'" [citations omitted] Petitioner does
not attempt to explain how a single-conspiracy
argument would have advantaged counsel's other
clients or why counsel's loyalty to his other clients
would have deterred him from challenging the
single-conspiracy theory on appeal. He also does
not explain how conceding the sufficiency of the
evidence on the drug conspiracy count would have
advantaged counsel's other clients or why
counsel's loyalty to them would have deterred him
from challenging the sufficiency of the evidence. It
is not enough to point to a concession or omission
on appeal; instead, counsel must explain how that
concession or omission would have been driven by

3

counsel's loyalties to his other clients. In the
absence of such a showing, there is no debatable
claim that counsel's multiple representations
deprived the petitioner of a constitutional right.
App. 1. The robust briefing and record presented by Petitioner to the First
Circuit belies the non-sequitur conclusion that he had not met the
DeCologero standard; he met and exceeded it.
On July 21, 2020, the First Circuit issued its Order denying
rehearing and rehearing en banc. App. 3.
__________________________
JURISDICTION
On April 2, 2020, the First Circuit entered its Memorandum
Opinion affirming the District Court’s denial of Petitioner’s 2255 and
refusal to issue a Certificate of Appealability. Then, on July 21, 2020, the
court issued its order denying the en banc rehearing. Therefore,
jurisdiction of this Court is invoked under Title 28 U.S.C. §§ 1254(1) and
1651(a).
__________________________
CONSTITUTIONAL PROVISIONS INVOLVED IN THIS CASE
United States Constitution, Fifth Amendment:
“No person shall ... be deprived of life, liberty or property without due
process of law….”
United States Constitution, Sixth Amendment:

4

“In all criminal prosecutions, the accused shall enjoy the right to ... have
the Assistance of Counsel for his defence [sic].”
__________________________
INTRODUCTION AND STATEMENT OF THE CASE
Cruz Vazquez filed a 28 USC Section 2255 Petition in the district
court in Puerto Rico raising six separate and distinct issues which were
robustly supported by what even the Government described as an
“extensive memorandum.” The elaborate, non-conclusory facts presented
in the 2255 by Cruz Vazquez visibly gave rise to critical factual disputes
and required either admissions or opposing sworn declarations from the
Government. In the 2255, there were also several disputed critical facts
before the district court mandating an evidentiary hearing.
The Government immediately went on to request several
extensions of time within which to file its response and opposition, noting
that it needed ample time because Cruz Vazquez had filed “an extensive
memorandum in support of a petition.”2
After several extensions of time, graciously granted by the district
court, the Government finally filed a response and opposition consisting
of unsupported claims and arguments, devoid of any sworn declarations.
Therefore, the Government’s response and opposition left several
dispositive critical facts unchallenged. The Government, however, added
admissions relative to one of the central issues raised by Cruz Vazquez –

2

Government’s First Request for Enlargement of Time, page 1, Exhibit A of Opening Brief.

5

that his appellate counsel had contemporaneously also represented one
of the key Government witnesses against him. And that cooperating
witness also happened to maintain that the conspiracy charged against
Cruz Vazquez and his co-defendants was a single overall conspiracy
headed by the same drug trafficking organization – Petitioner’s
brother Ayala Vazquez, the government witness’s brother, and others.
The same appellate lawyer who represented Petitioner on direct
appeal also represented the Government’s critical witness who had
represented that this was but a single, overall conspiracy. Making it
evident that to even raise a multiple conspiracy argument on appeal for
Petitioner would necessarily involve contradictory conduct to appellate
counsel’s other client, a cooperating Government witness.
In his 2255 and later in his appeal, Cruz Vazquez expressly raised
six separate issues, fully briefed and developed. Those issues were:
1. Mr. Cruz Vazquez was deprived of his Fifth Amendment right to
due process and his Sixth Amendment right to the effective
assistance of conflict-free counsel on direct appeal because
multiple conflicts of interest infected appellate counsel in
violation of Wheat v. United States, 486 U.S. 153 (1988); Mickens
v. Taylor, 535 U.S. 162 (2002); and, Evitts v. Lucey, 469 U.S. 387,
405 (1984);
2. Mr. Cruz Vazquez was also provided ineffective assistance of
appellate counsel when counsel failed to advocate for a multiple
conspiracy defense by not challenging on appeal the sufficiency
of the evidence for the alleged single conspiracy;
3. Appellate counsel provided ineffective assistance for his

6

unauthorized admission on appeal of Mr. Cruz Vazquez's guilt to
the "single conspiracy" drug trafficking Count and to a
"management role" in it;
4. Mr. Cruz Vazquez's trial counsel provided ineffective assistance
when he inexplicably failed to investigate, prepare and present
a multiple-conspiracy defense based upon the well-known
precedent in United States v. Dellosantos, 649 F.3d 109, 121 (1st
Cir. 2011);
5. The Government deprived Mr. Cruz Vazquez of his rights to due
process and effective assistance of counsel by the intentional and
willful withholding of Brady v. Maryland, 373 U.S. 83 (1963)
exculpatory and impeaching material and introduction of false
testimony at trial;
6. Mr. Cruz Vazquez was deprived of the effective assistance of
counsel at sentencing and on appeal because here, as even the
Government argued, trial counsel "failed to provide evidence to
support the sentencing disparity contention prior to or at
sentencing" and that the disparity argument "should be deemed
waived."
Yet, despite Petitioner’s six separate issues having been fully
briefed and developed in his “request for a COA”, the First Circuit
incredibly wrote on page 2 of its parsimonious Order denying the
certificate of appealability: “To the extent the petitioner seeks to advance
any of the other claims from his 28 USC § 2255 motion, the claims are
waived for failure to develop them in his request for COA.”
Emphasis added. Explicitly, the First Circuit failed to even notice the
four additional issues fully developed by Petitioner at pages 11-14 of
his “request for a COA,” and simply left them ignored.

7

These actions by the First Circuit violated this Court’s precedent in
Buck v. Davis,137 S.Ct. 759, 773 (2017), which held of a COA – “the only
question is whether the applicant has shown that ‘jurists of reason could
disagree with the district court’s resolution of his constitutional claims
or that jurists could conclude the issues presented are adequate to
deserve

encouragement

to

proceed

further.”

Quoting

Miller-

El v. Cockrell, 537 U. S. 322, 336 (2003) (state case involving a Batson
issue under a stricter 2254 AEDPA standard, but finding that a COA
should have been issued), emphasis added.
Plainly, the First Circuit expressly considered and ruled upon only
issues 1 and 2, in Petitioner’s Motion for a COA, leaving unreviewed
Petitioner’s well developed issues 3-6, which were: 3) IAC because of
appellate counsel’s unauthorized concession of guilt on the single
conspiracy conviction; 4) IAC for failure to even consider a challenge on
the sufficiency of evidence on the conspiracy conviction based upon
United States v. Dellosantos, 649 F.3d 109, 121 (1st Cir. 2011); 5) the fully
briefed and supported issue of the district court’s biased failure to even
consider the demonstrated pattern of Brady v. Maryland, 373 U.S. 83
(1963) violations by the Puerto Rico U.S. Attorney’s Office; and, 6) IAC at
sentencing for failure by counsel to provide any mitigating information
or proportionality evidence; this issue was expressly noted by the First
Circuit and admitted by the Government who then argued that the
sentencing issues had been “waived.” Were, the waiver of a sentencing
issue by the admitted failure of counsel to have presented mitigating

8

sentencing evidence would be a priori presumed to have negatively
affected a Petitioner.
The First Circuit failed to even note that Petitioner’s Sixth issue
was an uncontested abandonment by trial counsel of Petitioner’s right to
the effective assistance of counsel at sentencing. The lower court,
therefore, sanctioned a fundamental violation of Petitioner’s right under
the Sixth Amendment to meaningful representation by counsel at one of
the most critical stages of a case – sentencing. Mempa v. Rhay, 389 U.S.
128 (1967) and Glover v. United States, 531 U.S. 198, 203-04 (2001).
Instead of even noting this issue, the First Circuit simply and
inaccurately noted “To the extent the petitioner seeks to advance any
of the other claims from his 28 USC § 2255 motion, the claims are
waived for failure to develop them in his request for COA.”
Emphasis added. Petitioner had briefed the sentencing issue at page 12
of his Motion for a COA, in the context of the other 5 issues briefed at
pages 10-13, and the Government argued that counsel waived it for
failure to advocate.
__________________________
REASON FOR ALLOWANCE OF THE WRIT
1. A Certificate of Appealability was Compelled by the Record.
This case presents facts that show a need for this Court to provide
guidance to lower courts on the parameters of determining the granting
or denial of a COA. In Buck v. Davis,137 S.Ct. 759, 773 (2017), quoting

9

Miller-El v. Cockrell, 537 U.S. 322, 338 (2003), this Court held:
The COA inquiry, we have emphasized, is not
coextensive with a merits analysis. At the COA
stage, the only question is whether the applicant
has shown that “jurists of reason could disagree
with the district court’s resolution of his
constitutional claims or that jurists could conclude
the issues presented are adequate to deserve
encouragement to proceed further.” [citation
omitted] This threshold question should be
decided without “full consideration of the factual
or legal bases adduced in support of the claims.”
[citation omitted] “When a court of appeals
sidesteps [the COA] process by first deciding the
merits of an appeal, and then justifying its denial
of a COA based on its adjudication of the actual
merits, it is in essence deciding an appeal without
jurisdiction.”
Moreover, Title 28 United States Code Section 2253(c) provides that
a COA may issue where "the applicant has made a substantial showing
of the denial of a constitutional right." 28 U.S.C. §2253(c) (1996). In order
to make a "substantial showing," a petitioner seeking a COA must show
either that: (1) the issues are debatable among jurists of reason, (2) a
court could resolve the issues in a different manner, or (3) the questions
are "adequate to deserve encouragement to proceed further." Barefoot v.
Estelle, 453 U.S. 880, 893 n. 4, (1983), emphasis added.
This Court has established that the "debatable among jurists of
reason" inquiry is a very low barrier to the issuance of a COA. MillerEl, at 338. In fact, a claim can be considered "debatable" even if every

10

reasonable jurist would agree that the petitioner will not prevail. Id. The
petitioner must, however, prove "something more than the absence of
frivolity or the existence of mere good faith on his or her part." Id.
(internal quotations omitted). Undeniably, Cruz Vazquez established
that his detailed facts and fully developed issues were most definitely far
beyond "something more than the absence of frivolity or the existence of
mere good faith on [Petitioner’s] part." It bears repeating here that even
the

Government

described

Petitioner’s

2255

as

“an

extensive

memorandum in support of a petition.”
Indeed, in Miller-El, Justice Scalia in his concurring, cautionary
opinion, explicitly disagreed with the Petitioner on the merits but
nevertheless specifically noted –“[M]y conclusion that there is room for
debate as to the merits of petitioner’s Batson claim is far removed from
a judgment that the state’s explanations for its peremptory strikes were
implausible.” Miller-El, at 354, emphasis added. Justice Scalia captured
the essence of the standard for issuing a COA – even where a
judge/justice disagrees with the merits presented by a petitioner, a COA
must issue where there is intellectually-honest debate on the issue. A
fortiori, this should be self-evident where the First Circuit had already
noted several key failures/shortcomings by conflicted appellate counsel
on direct appeal. See below, at Section 3.

11

2. Petitioner Established a Concurrent Representation
Conflict and Manifestation of Divided Loyalties.
The lead issue raised by Petitioner was a multi-layered conflict of
interest infecting appellate counsel. This harmful conflict was in that
unique area of law where, as the First Circuit was mandated to accept, a
Petitioner is not required to show Strickland prejudice. See generally,
Mickens v. Taylor, 535 U.S. 162 (2002) and Strickland v. Washington, 466
U.S. 668, 687 (1984), and, United States v. Burgos-Chapparro, 309 F.3d
50, 52 (1st Cir. 2002).
In the “extensive memorandum” supporting his issues, Cruz
Vazquez provided a plethora of specific, detailed facts, making the
required “substantial showing”
Appealability (COA).

3

for issuance of a Certificate of

This substantial showing was that conflicted

appellate counsel had denied Cruz Vazquez his constitutional rights to
due process and the effective assistance of counsel on several issues fully
detailed and supported in the petition in his Exhibit B, Points &
Authorities in Support of Petition for a Writ of Habeas Corpus; and,
Exhibit C, Petitioner’s Reply/Traverse to Government’s Untimely
Response/Reply. Cruz Vazquez provided all supporting materials to the
First Circuit.
But the “extensive memorandum” Petitioner filed in the district
court, provided to the First Circuit, and the full record, demonstrate that

3

28 USC Section 2253(c).

12

Cruz Vazquez in fact did “ascertain and explain,” in various areas, how
the conflicted, concurrent representation of, inter alios, one of the
principal cooperating co-defendants against Cruz Vazquez deprived him
of his constitutional rights.

Petitioner fully supported this with his

Exhibit B, pages 10-16 and 19-28, provided to the First Circuit.
Petitioner also demonstrated how the Government inaccurately
tried to minimize, without any supporting counterbalancing declaration,
the effect of that concurrent conflicted representation by claiming that
the representation of Figueroa was merely for “two (2) months and eight
(8) days.” But the Government failed to dispel the harmful failure by
defense counsel to pursue a multiple conspiracy defense because that
would have contradicted the testimony of the Government’s witnesses, of
conflicted counsel’s other client Figueroa.
Cruz Vazquez included in his 2255, inter alia, facts and excerpts
from trial transcripts revealing that the conflict of interest resulted in
appellate counsel harming Cruz Vazquez in various ways. First, by
conceding his own client’s guilt to the overall “single” drug trafficking
conspiracy; Second, by then inconsistently challenging the sufficiency of
the evidence but only to the related/dependent money laundering counts;
and, Third, and critically, in the context of concurrent representation of
one of the Government’s principal cooperators, by expressly conceding as
true the suspect testimony of the Government’s biased, cooperating
witnesses, including Figueroa.
The First Circuit’s very own findings on direct appeal included:

13

Like his brother, Cruz does not contest the
substance of the testimony against him,
focusing instead upon the inferences to be drawn
from the evidence and the purported unfairness of
his life sentence.[footnote omitted] While Cruz
concedes that he was in fact involved in the
DTO and that he was an "administrator" at
Barbosa and Sierra Linda, he maintains that his
participation was “limited" to those two locales and
characterizes his role as nothing more than a
"third-tier administrator. "
Cruz Vazquez, 751 F.3d 1, at 4, emphasis added.
On direct appeal, a point in the case when the First Circuit had not
yet been informed of the new facts nor of the conflict of interest materially
infecting appellate counsel, the court’s key observation highlighted one
of the critical material harms to Cruz Vazquez – his own conflicted
appellate counsel “concede[d] that he was in fact involved in the DTO and
that he was an ‘administrator’ at [a drug distribution center].” A
staggering, jaw-dropping breach of loyalty and admission of guilt to the
core of the indictment against Cruz Vazquez, to which he had
consistently denied guilt and for which he elected to proceeded to trial.
Cruz Vazquez established that his appellate conflicted counsel
contemporaneously represented, inter alios, no less than one of the
Government’s principal cooperators in this case and two co-defendants in
one of the conspiracies for which he stood trial. The undisputed record
he developed shows that the district court independently knew this fact.

14

Simultaneously, Cruz Vazquez developed the very findings of fact
by the district court which demonstrated the lack of evidence presented
against him at trial; and which demonstrate the obvious failure by
appellate counsel to pursue an insufficiency-of-evidence attack on the
single conspiracy, not only to the money-laundering conspiracy.
Significantly, the district court, at the end of trial and before
closing, asked counsel for their time estimates for each of their closing
arguments and noted specifically to Cruz Vazquez’s counsel:
THE COURT: And then time wise, what do we
have?
MR. RUBINO: Maximum 45 minutes for me.
(Ayala's counsel).
MR. CEREZO: Same to me. (Cruz Vazquez's
counsel).
THE COURT: You, 45 minutes? (To Cruz
Vazquez's counsel).
MR. CEREZO: Thirty minutes.
THE COURT: Yours wasn't even touched.
MR. CEREZO: Thirty minutes maximum.
Maximum.
THE COURT: [ ... ] I will time you. Once you
start, I will let you know.
MR. CEREZO: Five minutes before.
THE COURT: Yes, when you have five minutes to
go.
MR. CEREZO: To wrap it up.
THE COURT: You don't have much to say.

15

MR. CEREZO: I don't. I don't have much to-say.
As a matter of fact, you will be surprised how little
I have to say.
Reporter's Trial Transcript, April 25, 2011, 17th-day of trial, pages 6-7,
(emphasis supplied). App. 4.
Thus, the new facts presented to the district and appellate courts
by Cruz Vazquez in his 2255 were materially different than the
incomplete, misleading facts that initially made their way on direct
appeal. These new facts were never presented to the district court; nor
were these new facts provided to the appellate court by conflicted
appellate counsel.
3. The Issues Presented by Cruz Vazquez for Issuance of
the COA Indisputably Satisfied 2253(c).
In United States v. Gonzalez-Lopez, 548 U.S. 140, 151-52 (2006), a
case that did not involve a conflict of interest, but the right to retained
counsel of choice, this Court noted – “ [The Sixth Amendment right to
counsel of choice] commands, not that a trial be fair, but that a
particular guarantee of fairness be provided – to wit, that the
accused be defended by the counsel he believes to be best.” GonzalezLopez at 146, emphasis added. It is in the expectation of the accused who
“believes” that his counsel of his choice is “the best,” that the GonzalezLopez reasoning enlightens Cruz Vazquez’s belief and expectation that
his appellate counsel of choice was acting in his best interest. And that

16

such counsel provided “a particular guarantee of fairness.” Sadly, that
counsel was deeply conflicted.
Plainly, conflicted counsel for Cruz Vazquez failed at both because he
had divided loyalties. And even a general consideration of the six issues
raised by Cruz Vazquez, four of which were ignored by the First Circuit,
demonstrates that he was denied that “particular guarantee of fairness.”
The six issues Cruz Vazquez raised fit squarely within the disjunctive
requirements of Section 2253(c). The six issues, noted above, Cruz
Vazquez presented and supported with detailed facts, declaration and
legal bases.
Each of the issues were indisputably “debatable among jurists of
reason.” Or, “(2) a court could resolve the issues in a different manner;
or, (3) the questions are ‘adequate to deserve encouragement to proceed
further.’”
In his Petition, Cruz Vazquez also demonstrated how all issues he
raised were affected by the admitted concurrent representation of a codefendant by his appellate counsel. Each issue, especially the sentencing
issue, was directly related to whether appellate counsel’s concurrent
representation of Jorge Figueroa Agosto, and others, prevented him from
challenging the very sufficiency of the evidence on the single drug
conspiracy. Whether the Government’s other cooperating alleged coconspirators were telling the truth at trial. And whether appellate
counsel, also having duties of loyalty to Figueroa Agosto who had pleaded
guilty, breached his duty of loyalty to Cruz Vazquez by then admitting

17

guilt to the drug trafficking conspiracy and even to having an
“administrator” role in that “DTO.” And then, incomprehensively,
arguing mitigation without supporting evidence.
Justice Scalia’s findings in Gonzalez-Lopez at 146 – “a particular
guarantee of fairness be provided – to wit, that the accused be
defended by the counsel he believes to be best,” about the showing
necessary by a defendant are helpful in a conflict of interest area because,
while Cruz Vazquez must make the showing required by 2253(c), such a
relaxed showing must also be evaluated with the overall structural
concerns present in Gonzalez-Lopez. Indisputably, for a lawyer to concede
a client’s guilt by accepting the testimony of his concurrently represented
client’s presumptively-suspect trial testimony given for the Government,
and even admitting an “administrator” role for that client, must certainly
also constituter a breach of that “fundamental fairness” of which Justice
Scalia wrote.
4. Denying the COA, the First Circuit Also Seemingly
Forgot its Own Findings on Direct Appeal, Ignoring
that Even the Government Admitted that Cruz
Vazquez’s Counsel Failed to Effectively Advocate at
Sentencing and Failed on Direct Appeal.
In its published opinion affirming Cruz Vazquez conviction and
sentence on direct appeal, the First Circuit expressly noted: "Focusing
his argument on his codefendants, Cruz does not argue that his
sentence is not in accordance with those given to similar defendants on a
national scale. As such, any such argument has been waived." United

18

States v. Angel Ayala Vazquez and Luis X Cruz Vazquez, 751 F.3d 1, at
footnote 34 (1st Cir. 2014), emphasis added. Of course, the court referred
to conflicted appellate counsel for Cruz Vazquez.
Of conflicted appellate counsel, the First Circuit added: “Although
the arguments set forth in his brief could have been stated with better
clarity, Cruz essentially claims the district court committed a variety of
procedural errors with respect to sentencing, and that the life sentence
is substantively unreasonable.... Cruz’s brief has a tendency to
combine, rather than separate, his arguments with respect to
procedural and substantive unreasonableness.” ” Id. at 22, emphasis
added.
Adding insult to injury, the court went on: “Moreover, [counsel] has
wholly failed to come forward with any mitigating reasons, never
mind 'fairly powerful ones,' and we are not persuaded that the district
judge unreasonably balanced the factors that went into crafting Cruz's
sentence." Id. page 27, (Emphasis added). The court finished with this:
The government contends that Cruz waived any
arguments of disparity between himself and Ayala
by failing to raise them at the sentencing
hearing.... And, although the majority of his
"disparity arguments" focused on the lesser
sentences meted out to "defendants with similar
records and conduct," the issues of his culpability
compared to Ayala and of sentencing disparities
among defendants named in the Indictment were
clearly raised before the district court. Therefore,

19

we decline to find that Cruz waived this aspect of
his argument.
Id. page 23, note 33. Having determined that defense counsel in fact
raised, but failed to adequately present, disparity sentencing facts and
any arguments, the First Circuit plainly overlooked the new facts
underscoring the IAC at sentencing, now raised in this petition. It
appears that the lower court forgot its prior critical observations in its
published opinion about Cruz Vazquez’s counsel.
CONCLUSION
For the foregoing reasons, Cruz Vazquez respectfully requests this
Court issue a writ of certiorari to review the judgment of the United
States Court of Appeals for the First Circuit.
Dated: October 19, 2020
Respectfully Submitted,
EZEKIEL E. CORTEZ
Law Offices of Ezekiel E. Cortez
550 West C Street, Suite 620
San Diego, California 92101
(619) 237-0309
lawforjustice@gmail.com
Attorney for Petitioner
Luis Xadiel Cruz Vazquez

20

No. 20-

In The

Supreme Court of the United States
LUIS XADIEL CRUZ VAZQUEZ,
Petitioner,
-vsUNITED STATES OF AMERICA,
Respondent.

Certificate of Service
STATE OF CALIFORNIA )
COUNTY OF SAN DIEGO )
I, EZEKIEL E. CORTEZ, state under oath that:

I am a

member of the Bar of the Supreme Court of the United States; that on
October 19, 2020, pursuant to this Court’s Order 589 issued April 15,
2020, an electronic copy of the Petition for Writ of Certiorari in the aboveentitled case was e-filed with the Clerk of the Supreme Court of the
United States; that I also deposited a paper copy in a United States post
office mail box in San Diego, California, with priority postage prepaid,

21

properly addressed to the Clerk of the Supreme Court of the United
States, the same day of e-filing said Petition for Writ of Certiorari, and
with an additional copy of the Petition for Writ of Certiorari and Affidavit
of mailing served on counsel for Respondent: Solicitor General of the
United States, Department of Justice, 950 Pennsylvania Ave., N.W.,
Washington, D.C. 20530-0001. Dated at San Diego, this October 19, 2020.
s/ Ezekiel E. Cortez
EZEKIEL E. CORTEZ, Affiant

